No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
ALONTE DESHAVION RICHEY,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment of Revocation and Sentence of the United States District
Court for the Northern District of Texas

APPENDIX A

Case: 19-11019

Document: 00515447157

Page: 1

Date Filed: 06/10/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-11019
Summary Calendar

FILED
June 10, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
ALONTE DESHAVION RICHEY,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-53-1
Before STEWART, HIGGINSON, and COSTA, Circuit Judges.
PER CURIAM: *
Alonte Deshavion Richey appeals the revocation of his supervised release
and the 18-month sentences of imprisonment and supervised release imposed
upon revocation.

Richey’s supervised release was revoked pursuant to

18 U.S.C. § 3583(g), which requires the mandatory revocation of supervised
release and imposition of a term of imprisonment for defendants found to have
committed certain offenses, including possession of a controlled substance.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-11019

Document: 00515447157

Page: 2

Date Filed: 06/10/2020

No. 19-11019
For the first time on appeal, Richey argues that § 3583(g) is
unconstitutional in light of the Supreme Court’s decision in United States v.
Haymond, 139 S. Ct. 2369 (2019), because it does not require a jury
determination of guilt beyond a reasonable doubt. As he concedes, review of
this unpreserved issue is for plain error, which requires him to show (1) an
error that has not been affirmatively waived, (2) that is clear or obvious, and
(3) that affected his substantial rights. See Puckett v. United States, 556 U.S.
129, 135 (2009).

If he can satisfy those three prongs, this court has the

discretion to correct the error if it seriously affects the fairness, integrity, or
public reputation of judicial proceedings. See id.
The

Supreme

Court’s

decision

in

Haymond

addressed

the

constitutionality of § 3583(k), and the plurality opinion specifically disclaimed
expressing any view of the constitutionality of § 3583(g). See Haymond, 139 S.
Ct. at 2382 n.7. In the absence of precedent from either the Supreme Court or
this court extending Haymond to § 3583(g), we conclude that there is no clear
or obvious error. See Puckett, 556 U.S. at 135; United States v. Evans, 587 F.3d
667, 671 (5th Cir. 2009). Accordingly, the judgment of the district court is
AFFIRMED.

2

APPENDIX B

Case 4:19-cr-00053-A Document 23 Filed 09/05/19

Page 1 of 3U.S.PageID
DISTRICT 107
COURT
NORTllllRN DISTRICT OF TEXAS

FILED

IN THE UNITED STATES DISTRICT OURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION

SEP - 5 2019

CLERK. U.S. DISTRICT COURT

UNITED STATES OF AMERICA

~--.,.b~cp~u~ty_ __

§
§

VS.

§

NO. 4:19-CR-053-A

§

ALONTE DESHAVION RICHEY

§

JUDGMENT OF REVOCATION AND SENTENCE
Came on to be heard, as contemplated by Fed. R. Crim. P.
32.1, the motion of United States of America to revoke the term
of supervised release imposed on defendant, ALONTE DESHAVION

RICHEY.

After having considered the grounds of the government's

motion, defendant's admissions, statements of and on behalf of
defendant, and argument of counsel, the court has determined that
the term of supervised release imposed on defendant should be
revoked and that defendant should be sentenced to a term of
imprisonment of 18 months and to serve an 18-month term of
supervised release upon discharge from prison.
The court finds and concludes that:
(a)

Defendant was given,

in a timely manner, written

notice of his alleged violations of the term of supervised
release upon which the motion to revoke is based;
(b)

The motion to revoke the term of supervised

release was served on defendant in a timely manner prior to
the hearing;

Case 4:19-cr-00053-A Document 23 Filed 09/05/19

(c)

Page 2 of 3 PageID 108

There was a disclosure to defendant, and his

attorney, of the evidence against defendant; and
(d)

The hearing was held within a reasonable time.

Other findings and conclusions of the court were stated by
the court into the record at the hearing.

The court adopts all

such findings and conclusions as part of this judgment.
In reaching the conclusions and making the determinations
and rulings announced at the hearing, and as stated in this
judgment, the court considered all relevant factors set forth in
18 U.S.C.

§

3553(a) that are proper for consideration in a

revocation context.
The court ORDERS, ADJUDGES, and DECREES that the term of
supervised release, as provided by the judgment in a criminal
case imposed February 24, 2017, and signed February 28, 2017, in
Case No. 3:16-CR-00179-1-MO in the United States District Court
for the District of Oregon, the Honorable Michael W. Mosman
presiding (the "underlying judgment") be, and is hereby, revoked;
and
The court further ORDERS, ADJUDGES, and DECREES that
defendant, ALONTE DESHAVION RICHEY, be, and is hereby, committed
to the custody of the United States Bureau of Prisons to be
imprisoned for a term of 18 months, to be followed by a term of
supervised release of 18 months.
2

Case 4:19-cr-00053-A Document 23 Filed 09/05/19

Page 3 of 3 PageID 109

The court further ORDERS, ADJUDGES, and DECREES that, while
on supervised release, defendant shall comply with the same
conditions as set forth in the underlying judgment, except that
standard condition of supervision number 3 is amended to read as
follows:
The defendant shall not leave the judicial district
in which he is being supervised without permission
of the U.S. Probation Officer.

The court hereby directs the probation officer to provide
defendant with a written statement that sets forth all the
conditions to which the term of supervised release is subject, as
contemplated and required by Title 18 United States Code
section 3583(f).
The defendant is remanded to the custody of the United
States Marshal.
The date of imposition of the sentence provided by this
judgment is September 5, 2019.
SIGNED September 5, 2019.

Personal information about th defendant is set forth on the
attachment to this Judgment f Revocation and Sentence.

3

